           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   KINDERGARTEN THROUGH 12TH GRADE
     SCHOOLS’ COLLECTION AND USE
      OF SOCIAL SECURITY NUMBERS

      July 2010   A-08-10-11057




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro mo te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o mm e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rmin e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o mm e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve me n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e mp lo ye e d e ve lo p me n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 22, 2010                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Kindergarten Through 12th Grade Schools’ Collection and Use of Social Security
           Numbers (A-08-10-11057)


           OBJ ECTIVE
           Our objective was to assess kindergarten through 12th grade (K-12) schools’ collection
           and use of Social Security numbers (SSN) and the potential risks associated with
           current practices.

           BACKGROUND

           Millions of children enroll in K-12 schools each year. To assist in this process,
           K-12 schools may collect and use SSNs for various purposes. Although no single
           Federal law regulates overall use and disclosure of SSNs by K-12 schools, the Privacy
           Act of 1974, Social Security Act, and Family Educational Rights and Privacy Act of 1974
           (FERPA), contain provisions that govern disclosure and use of SSNs. See Appendix B
           for more information on the specific provisions of these laws. Additionally, the Office of
           Management and Budget (OMB) issued a memorandum in 2007 on safeguarding
           against and responding to disclosure of personally identifiable information, including
           SSNs. 1 Federal agencies are required to reduce the volume of collected and retained
           personally identifiable information to the minimum necessary, 2 including establishment
           and implementation of plans to eliminate unnecessary collection and use of SSNs.3

           We reviewed relevant State laws, policies, and practices regarding K-12 schools’
           collection and use of SSNs. We also contacted selected State educational agencies to
           identify steps States have taken to limit K-12 schools’ collection and use of SSNs. In


           1
            OMB, Safeguarding Against and Responding to the Breach of Personally Identifiable Information
           (M-07-16), May 22, 2007.
           2
               Id. at 2.
           3
               Id. at Attachment 1, § B.2.a.
Page 2 - The Commissioner

addition, we identified incidents in which K-12 schools inadvertently and/or improperly
disclosed students’ SSNs. See Appendix C for additional details regarding the scope
and methodology of our review.

RESULTS OF REVIEW
Despite the increasing threat of identity theft, our review of State laws and school
policies and practices disclosed that K-12 schools’ collection and use of SSNs was
widespread.4 We determined that many K-12 schools used SSNs as the primary
student identifier or for other purposes, even when another identifier would have
sufficed. In addition, there has been a growing trend among State Departments of
Education to establish longitudinal databases, which may include SSNs, of
K-12 children in a State to track students’ progress over time. While some State laws
may require that K-12 schools collect SSNs in some instances, we believe some do so
as a matter of convenience—because SSNs are unique identifiers and most students
have an SSN. However, we do not believe administrative convenience should ever be
more important than safeguarding children’s personal information.

We believe the unnecessary collection and use of SSNs is a significant vulnerability for
this young population.5 Recent data indicate the number of children under age
19 whose identities have been stolen is growing. This is particularly troubling given that
some of these students may not become aware of such activity until they apply for a
credit card or student loan. Because of the numerous incidences of identity theft and
the recognition that SSNs are linked to vast amounts of personal information, some
States have taken steps to limit the collection and use of SSNs. We are encouraged by
these efforts and believe that State and local educational systems should seek
additional ways to limit their collection and use of SSNs and implement stringent
controls to protect SSNs when collected.

K-12 SCHOOLS’ COLLECTION AND USE OF SSNs

We determined that many K-12 schools used SSNs as primary student identifiers to
help in recordkeeping and tracking students throughout their school years. For
example, we identified laws in 7 States 6 that required that K-12 schools obtain students’




4
 This issue was first discussed in a prior SSA OIG audit, State and Local Governments’ Collection and
Use of Social Security Numbers (A-08-07-17086), September 2007.
5
  For the 2009/2010 school year, the National Education Association (NEA) estimated there were more
than 49 million K-12 students in over 15,000 school districts nationwide. See NEA, Rankings &
Estimates: Rankings of the States 2009 and Estimates of School Statistics 2010, December 2009.
6
  The States were Alabama, Arkansas, Florida, Georgia, Kentucky, Virginia, and West Virginia. Although
these States require an SSN for enrollment, they also may provide alternative numbers for individuals
who refuse to provide their SSN or who are not eligible for an SSN.
Page 3 - The Commissioner

SSNs and schools in at least 26 other States 7 that collected students’ SSNs at
registration, even though no State law required that they do so. 8 We also identified
K-12 schools that included students’ SSNs on such documents as enrollment
applications, student profiles, graduation forms, transcripts, tests, athletic participation
forms, and educational research data. In addition, we identified an elementary school
poster contest in which students’ SSNs were requested on entry forms attached to the
back of posters.9 We believe such practices increase the risk of SSN misuse and
unnecessarily subject students to the possibility of identity theft.

In addition to K-12 schools’ collection and use of SSNs, there is a growing trend among
State Departments of Education to establish longitudinal databases of all K-12 children
within a State to track students’ progress over time, according to a recent university
study. 10 The study found that privacy protections for these databases were generally
lacking in the majority of States. Furthermore, the study reported that at least
32 percent of States warehoused children’s SSNs, and over 80 percent of States
apparently failed to have data retention policies and were likely to hold student
information indefinitely. In addition, several States outsourced the data-warehousing
function without any protections for privacy in vendor contracts. While we recognize
there are some legitimate reasons for data collection in K-12 educational systems (for
example, tracking school improvement), we question the need for States to collect
SSNs, especially when States also assign a unique identification number to students in
these databases. Until States stop collecting SSNs and redact existing SSNs, we
encourage States to implement stringent security measures when establishing such
databases.

The coordinator of the Statewide Longitudinal Data Systems Grant Program 11 told us
the U.S. Department of Education does not instruct States to collect SSNs when
establishing longitudinal databases. Although 28 (56 percent) States collect SSNs, he
agreed they may not need to continue this practice because all States now assign a
unique identification number to students in these databases. According to the grant
program coordinator, the primary reason some States collect K-12 students’ SSNs is to
allow States to track students as they move to post-secondary education systems and
enter the workforce. While he acknowledged that privacy protections may vary among

7
 The States were Connecticut, Delaware, Hawaii, Illinois, Iowa, Kansas, Louisiana, Maine, Maryland,
Massachusetts, Michigan, Mississippi, Missouri, Nebraska, Nevada, New Hampshire, Ohio, Oklahoma,
Oregon, Pennsylvania, Rhode Island, South Carolina, Texas, Utah, Wisconsin, and Wyoming.
8
    We do not suggest that these are the only States in which K-12 schools collect SSNs at registration.
9
 Although instructions state that SSNs may be redacted on the copy of the entry form affixed to the back
of the poster, we question the need to obtain such information before award and prize selection.
10
  Joel R. Reidenberg et al., Fordham Law School Center on Law and Information Policy, Children’s
Educational Records and Privacy, October 2009.
11
  This U.S. Department of Education grant program is designed to aid State education agencies in
developing and implementing longitudinal data systems to enhance the ability of States to efficiently and
accurately manage, analyze, and use education data, including individual student records.
Page 4 - The Commissioner

States, he believes that most States understand the importance of having safeguards in
place to protect personally identifiable information and are working to do so.

POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

K-12 schools’ collection and use of SSNs entail certain risks. Each time a student
provides his/her SSN, the potential for a dishonest individual to unlawfully gain access
to, and misuse, the SSN increases. Identity thieves often target children because they
have clean credit histories, and their records may be used for years before they realize
their identity has been used for criminal activities. Since 2005, 40 school-related
breaches of children’s personally identifiable information (including SSNs) have been
reported.12 Because many K-12 schools still use SSNs as the primary student identifier,
students’ exposure to such activity remains. We believe the following examples
illustrate K-12 students’ risk of exposure to identity theft and fraud.

•    In March 2009, 8 individuals were indicted and arrested for breaking into about
     50 public schools in Puerto Rico and stealing personal identification documents
     (including SSN cards) from as many as 12,000 students, teachers, and school
     administrators. The documents were stolen for sale to illegal immigrants interested
     in using the identities of U.S. citizens. The documents were sold as sets (SSN cards
     and birth certificates), originals or copies, starting at $150 or $40, respectively.

•    In December 2009, a North Carolina school system accidentally sent out about
     5,000 postcards with students’ SSNs printed on the front.

•    In September 2009, 15 boxes containing hundreds of students’ confidential records
     (including birth certificates and SSN cards) were dumped on the sidewalk in front of
     their former New York high school.

•    In October 2008, more than 400 identification cards were recalled from a Maryland
     high school when officials realized that student SSNs had been printed on some of
     them, even though the school system assigned students distinct identification
     numbers. The school system also appears to use SSNs in student lunch codes.

•    In November 2009, documents from a Texas school district’s lunch program for
     2003 to 2006 were left at a television news station with a note attached claiming the
     documents were found at a recycling center. Students’ SSNs were visible on the
     documents.




12
   As of December 2008, only 44 States required notification of security breaches involving personal
information. As such, all breaches may not have been reported.
Page 5 - The Commissioner

SOME STATES HAVE TAKEN STEPS TO LIMIT SSN COLLECTION AND USE

The increase in identity theft and the recognition that SSNs are linked to vast amounts
of personally identifiable information have led some States to limit SSN collection and
use in K-12 schools.13 We identified four States that had enacted laws to prohibit
K-12 schools or State educational agencies from using SSNs as primary student
identifiers.14 In addition, we identified four other States that had policies and practices
that restricted the collection and/or use of SSNs in K-12 schools.15 Education officials in
these States confirmed that there was no need to use SSNs as student identifiers when
other unique identifiers were sufficient to track K-12 students. The following examples
illustrate some of the steps States have taken to limit SSN collection and use in
K-12 schools.

•     No public educational institution in Rhode Island, including the State Department of
      Elementary and Secondary Education, may assign an individual identification
      number to a student that is identical to, or incorporates, the individual’s SSN. In
      addition, no public educational institution may allow the public display of a student’s
      SSN or any four or more consecutive numbers contained in the individual’s SSN for
      any purpose.

•     While a school board or governing body of a private school may assign a unique
      identification number to each K-12 student in Wisconsin, they may not assign a
      number that is identical to, or incorporates, the student’s SSN. The identification
      number is intended to travel with the student throughout his/her academic career
      and is used for all required State reporting. This eliminates the need for school
      districts to use SSNs as student identifiers in their computer systems.

•     Nebraska does not have a law that prohibits SSNs as student identifiers. However,
      school districts do not use SSNs as such because the Nebraska Department of
      Education assigns a Student ID, which is a 10-digit, randomly assigned number.
      Furthermore, Nebraska does not store SSNs in its data warehouse. An education
      official told us SSNs are not a universally used identifier for school purposes
      because it is too much trouble to protect the SSN at the State level.

•     While there is no law in North Dakota prohibiting the use of SSNs as student
      identifiers, the Department of Public Instruction avoids using SSNs as student
      identifiers because of sensitivity issues. An education official told us the unique
      student identifier it uses sufficiently tracks students through the K-12 system, thus
      eliminating the need to use SSNs.

13
   We do not intend to suggest that the States discussed below are the only States that have taken steps
to limit SSN collection and use in K-12 schools.
14
  The States were New Hampshire, Ohio, Rhode Island, and Wisconsin. However, such laws may not
prevent K-12 schools from collecting and using SSNs for other purposes.
15
     The States were Nebraska, North Dakota, Washington, and Wyoming.
Page 6 - The Commissioner

In previous audits,16 we identified instances in which colleges and universities used
SSNs as the primary student identifier or for other purposes. However, numerous
incidences of identity theft led some schools to reconsider the practice. In addition,
some States enacted laws to regulate college and university use of SSNs. We are
encouraged by those efforts and believe that State and local governments should afford
the same protections to students in K-12 schools.

CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with using SSNs as primary student identifiers,
many K-12 schools continue this practice. While we recognize that SSA cannot prohibit
States or K-12 schools from collecting and using SSNs as student identifiers or for other
purposes, we believe SSA can help reduce the threat of identity theft and SSN misuse
by encouraging States and K-12 schools to reduce unnecessary collection of SSNs and
improve protections and safeguards when collected. We recommend that SSA:

1. Coordinate with State Departments of Education and K-12 school systems to inform
   the education community about the potential risks associated with using SSNs as
   student identifiers or for other purposes.

2. Encourage State Departments of Education and K-12 schools to reduce
   unnecessary collection and use of SSNs and implement stringent safeguards to
   protect SSNs when collected.

3. Promote the best practices of States and K-12 schools that have taken steps to limit
   SSN collection and use.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.




                                                       Patrick P. O’Carroll, Jr.




16
  SSA OIG, Universities’ Use of Social Security Numbers as Student Identifiers in Regions IV and X
(A-08-05-15034 and A-08-05-15033), December 2004 and March 2005, respectively.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Federal Laws That Govern Disclosure and Use of the
             Social Security Number
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
FERPA         Family Educational Rights and Privacy Act of 1974
K-12          Kindergarten Through 12th Grade
NEA           National Education Association
OIG           Office of the Inspector General
OMB           Office of Management and Budget
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSN           Social Security Number
U.S.C.        United States Code
                                                                                      Appendix B

Federal Laws That Govern Disclosure and Use
of the Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 1

The Privacy Act of 1974 (the Privacy Act) indicates, in part, that it is unlawful for any
Federal, State, or local government agency to deny any individual any right, benefit, or
privilege provided by law because of such individual’s refusal to disclose his/her SSN,
unless the disclosure is required by Federal statute or is to any Federal, State, or local
agency maintaining a system of records in existence and operating before
January 1, 1975, such disclosure was required under statute or regulation adopted
before such date to verify the identity of an individual.2 Further, under Section 7(b) of
the Privacy Act, 3 any Federal, State, or local government agency requesting that an
individual disclose his/her SSN must inform the individual whether the disclosure is
voluntary or mandatory, by what statutory or other authority the SSN is solicited and
what uses will be made of the SSN.

The Social Security Act

The Social Security Act provides, in part, that “Social security account numbers and
related records that are obtained or maintained by authorized persons pursuant to any
provision of law enacted on or after October 1, 1990, shall be confidential, and no
authorized person shall disclose any such social security account number or related
record.”4 The Social Security Act also provides, in part, that “. . . [w]hoever discloses,
uses, or compels the disclosure of the social security number of any person in violation
of the laws of the United States; shall be guilty of a felony….” 5 The Social Security Act
authorized certain State and local agencies to use the SSN for certain purposes and
allows, or in certain instances requires, such agencies to require individuals to furnish
their SSNs for such purposes.6
1
    Pub. L. No. 93-579, 5 U.S.C. 522a.
2
    Pub. L. No. 93-579 § 7(a), 5 U.S.C. 552a, note (Disclosure of social security number).
3
    Id.
4
    42 U.S.C. § 405(c)(2)(C)(viii).
5
    42 U.S.C. § 408(a)(8).
6
    42 U.S.C. § 405(c)(2)(C)(i), (ii), (v), (vi), (D), and (E).


                                                           B-1
The Family Educational Rights and Privacy Act of 1974 7

The Family Educational Rights and Privacy Act of 1974 (FERPA) protects the privacy of
student education records. FERPA applies to those schools that receive funds under
an applicable program of the U.S. Department of Education.8 Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record. 9 FERPA does, however, provide certain exceptions in
which a school is allowed to disclose records without consent.10 These exceptions
include disclosure without consent to: other school officials who have a legitimate
educational interest in the information, officials of institutions where the student is
seeking to enroll/transfer, parties to whom the student is applying for financial aid, the
parent of a dependent student, appropriate parties in compliance with a judicial order or
lawfully issued subpoena, or health care providers in the event of a health or safety
emergency. 11




7
    20 U.S.C. § 1232g.
8
    34 C.F.R. § 99.1(a)(2000).
9
  20 U.S.C. § 1232g(b). FERPA gives parents certain rights with respect to their children’s education
records. 34 C.F.R. § 99.10(a). These rights transfer to the child when the child reaches the age of 18 or
attends an institution of postsecondary education. 20 U.S.C. § 1232g(d). Children who have been
transferred rights are referred to as “eligible students.” 34 C.F.R. § 99.5(a).
10
     20 U.S.C. § 1232g(b)(1).
11
     Id.


                                                  B-2
                                                                       Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed relevant laws from all 50 States regarding kindergarten through 12th (K-12)
    schools’ use of Social Security numbers (SSN).

•   Reviewed Internet Websites of K-12 State educational agencies. We also selected
    and reviewed a sample of local K-12 school system Websites because of the large
    number of such entities.

•   Researched child identity theft and occurrences of school-related SSN exposure
    using Internet search engines.

•   Discussed development of the Statewide Longitudinal Data Systems Grant Program
    with the U.S. Department of Education.

•   Reviewed selected studies and articles regarding K-12 schools’ collection and use of
    SSNs.

•   Contacted selected State educational agencies to determine policies and practices
    regarding K-12 schools’ collection and use of SSNs.

Our review of internal controls was limited to gaining an understanding of the collection
and use of SSNs by K-12 schools. The Social Security Administration entity reviewed
was the Office of the Deputy Commissioner for Operations. We conducted our audit
from November 2009 through April 2010 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM


Date:      July 16, 2010                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Kindergarten Through 12th Grade
           Schools’ Collection and Use of Social Security Numbers" (A-08-10-11057)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate
           OIG’s efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "KINDERGARTEN THROUGH 12TH GRADE SCHOOLS’ COLLECTION
AND USE OF SOCIAL SECURITY NUMBERS (SSN)" (A-08-10-11057)

We agree there are many risks associated with schools using SSNs as primary identifiers. We
appreciate your acknowledging that we cannot prohibit the practice. Nevertheless, we do
actively discourage use of SSNs. We describe some of our efforts for doing so in our response
below.

Recommendation 1

Coordinate with State Departments of Education and K-12 school systems to inform the
education community about the potential risks associated with using SSNs as student identifiers
or for other purposes.

Response

We agree. Our website Social Security.gov already provides publications, policy, frequently asked
questions (FAQ), and best practices for protecting SSNs. More information is available in these links:

http://www.socialsecurity.gov/pubs/10002.html#protect
http://www.socialsecurity.gov/phila/ProtectingSSNs.htm
http://www.socialsecurity.gov/kc/id_practices_best.htm
https://secure.ssa.gov/apps10/poms.nsf/lnx/0100201070
http://ssa-custhelp.ssa.gov/app/answers/detail/a_id/1122/kw/protect%20ssn
http://ssa-custhelp.ssa.gov/app/answers/detail/a_id/1649/kw/protect%20ssn

In addition, in response to the September 2007 OIG Final Report, "State and Local Governments'
Collection and Use of Social Security Numbers" (A-08-07-17086), we are preparing articles promoting
these web pages to state and local governments as part our ongoing educational outreach efforts.

Recommendation 2

Encourage State Departments of Education and K-12 schools to reduce unnecessary collection
and use of SSNs and implement stringent safeguards to protect SSNs when collected.

Response

We agree. See response to recommendation 1.




                                                     D-2
Recommendation 3

Promote the best practices of States and K-12 schools that have taken steps to limit SSN
collection and use.

Response

We agree. See response to recommendation 1.




                                              D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Atlanta Audit Division

   Jeff Pounds, Audit Manager, Birmingham Office of Audit

Acknowledgments

In addition to those named above:

   Kathy Yawn, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-10-11057.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                         Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
